No, 20-255

 

IN THE
Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,

Vv.

B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY Lou Levy,
Respondents.

On Writ of Certiorari To
The United States Court of Appeals
For The Third Circuit

BRIEF OF ADVANCEMENT PROJECT, JUVENILE LAW
CENTER, AND 38 OTHER ORGANIZATIONS AS AMICI
CURIAE IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,059 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

Colin CA te

Wilson-Epes Printing Co., Inc.
